WAIVER

Supreme Court, U.S.
FILED

APR 2 9 2021

Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-7781

Leslie Bess, et al.
(Respondents)

v.

Abdu-Salim Gould
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature
Date: April 27, 2021
(Type or print) Name Rudolf Garcia-Gallont
0 Ms.
l Mr.

0 Mrs.

0 Miss

Firm Womble Bond Dickinson (US) LLP
Address One West Fourth Street
City & State Winston-Salem, North Carolina
Phone

336-721-3712

zip 27101

Email Rolf.Garcia-Gallont@wbd-us.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc: Abdu-Salim Gould

RECEIVED
MAY - 6 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

